CERTIFICATION
No.

IN THE SUPREME COURT OF THE UNITED STATES

Wayne Boucher —- PETITIONER
vs
Deanne Lyons —- RESPONDENT
PROOF OF SERVICE
I Wayne Boucher, do swear or declare that on this date, September 4, 2020, as
required by the Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served as follows:
Deanne Lyons, 5 Laraway Court #2B, Derry, NH 03030
United States Supreme Court, 1 First Street, NE Washington, DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 29, 2020
___-

Wayne Boucher
$
S

%

:

COMMISSION
EXPIRES

;

5
E

# |

ci

19 of 52

